Case 7:11-cr-01377 Document 92 Filed on 09/25/19 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MCALLEN DIVISION
ROLANDO B. VILLARREAL
VS.
UNITED STATES OF AMERICA

September 25, 2019
David J. Bradley, Clerk

§
CIVIL ACTION NO. M-16-299
§
§
§ CRIMINAL ACTION NO. M-11-1377-1
§
§

ORDER ADOPTING MAGISTRATE JUDGE'S REPORT AND RECOMMENDATION
AND GRANTING DISMISSAL
The Court has reviewed the magistrate judge's Amended Report and Recommendation
regarding Movant Rolando Villarreal’s action pursuant to 28 U.S.C. § 2255, and Movant’s
objections thereto. After having reviewed the said Report and Recommendation, and after
appropriate review of Movant's objections thereto, the Court is of the opinion that the
conclusions in said Amended Report and Recommendation should be adopted by this Court.
It is, therefore, ORDERED, ADJUDGED and DECREED that the conclusions in
United States Magistrate Judge Juan F. Alanis' Amended Report and Recommendation entered
as Docket Entry No. 42 are hereby adopted by this Court.
FURTHER, the Court, having adopted the magistrate judge’s conclusions, is of the
opinion that Movant’s Motion to Vacate Sentence under 28 U.S.C. § 2255 should be
DISMISSED, and that a certificate of appealability should be DENIED.
The Clerk shall send a copy of this Order to the Movant and counsel for Respondent.

SO ORDERED this 25th day of September, 2019, at McAllen, Texas.
___________________________________
Randy Crane
United States District Judge

1/1

54

Appendix C
19-40811.739

